<html>
<title> - FEDERAL INTERACTIONS WITH STATE MANAGEMENT OF FISH AND WILDLIFE</title>
<body><pre>[Senate Hearing 114-200]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-200

                       FEDERAL INTERACTIONS WITH 
                 STATE MANAGEMENT OF FISH AND WILDLIFE

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-406 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                     DAN SULLIVAN, Alaska, Chairman
JOHN BARRASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 9, 2016
                           OPENING STATEMENTS

Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    66

                               WITNESSES

Regan, Ronald J., Executive Director, Association of Fish and 
  Wildlife Agencies..............................................     5
    Prepared statement...........................................     8
    Responses to additional questions from Senator Sullivan......    18
Barry, Donald, Senior Vice President, Conservation Program, 
  Defenders of Wildlife..........................................    20
    Prepared statement...........................................    22
    Responses to additional questions from Senator Whitehouse....    35
Lang, Doug Vincent, former Director, Alaska Division of Wildlife 
  Conservation...................................................    39
    Prepared statement...........................................    41
    Responses to additional questions from Senator Sullivan......    46

                          ADDITIONAL MATERIAL

Letter to Senators Murkowski and Cantwell from Jennifer Mock 
  Schaeffer, Government Affairs Director, the Association of Fish 
  & Wildlife Agencies, December 15, 2015.........................    74
Letter to Dan Ashe, Director of the U.S. Fish and Wildlife 
  Service, from Ronald J. Regan, Executive Director, the 
  Association of Fish & Wildlife Agencies, January 15, 2016......    78
Written testimony of Todd Parfitt, Director, Wyoming Department 
  of Environmental Quality, February 3, 2016.....................    79
Letter to Joseph G. Pizarchik, Director, Office of Surface Mining 
  Reclamation and Enforcement, Department of the Interior, from 
  Todd Parfitt, Director, Wyoming Department of Environmental 
  Quality, May 22, 2015..........................................    88
Letter to Joseph G. Pizarchik, Director, Office of Surface Mining 
  Reclamation and Enforcement, Department of the Interior, from 
  Todd Parfitt, Director, Wyoming Department of Environmental 
  Quality, October 23, 2015......................................    90
Letter to Janice M. Schneider, Assistant Secretary for Land and 
  Minerals Management, Department of the Interior, from Todd 
  Parfitt, Director, Wyoming Department of Environmental Quality, 
  December 3, 2015...............................................    96
Letter to Janice M. Schneider, Assistant Secretary for Land and 
  Minerals Management, Department of the Interior, from Todd 
  Parfitt, Director, Wyoming Department of Environmental Quality, 
  January 19, 2016...............................................    98
Written testimony of John Corra, Director, Wyoming Department of 
  Environmental Quality, before the House Energy and Mineral 
  Resources Subcommittee, September 26, 2011.....................   101
Written testimony of Safari Club International...................   109
Letter to C. L. ``Butch'' Otter, Governor of the State of Idaho, 
  from Ken Salazar, Secretary of the Interior, April 15, 2011....   114
 
    FEDERAL INTERACTIONS WITH STATE MANAGEMENT OF FISH AND WILDLIFE

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2016

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room 406, Dirksen Senate Building, Hon. Dan Sullivan (chairman 
of the subcommittee) presiding.
    Present: Senators Sullivan, Barrasso, Capito, Boozman, 
Fischer, Rounds, Inhofe, Whitehouse, and Gillibrand.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. The Subcommittee on Fisheries, Water and 
Wildlife will now come to order. Good afternoon to our 
witnesses.
    The purpose of this hearing is to examine the interactions 
States have with the Federal Government as they seek to manage 
the fish and wildlife resources within their borders. I think a 
lot of people have a misunderstanding of this very important 
principle. Since the founding of our Republic, the States, not 
the Federal Government, have had primacy over the management of 
wildlife within their borders.
    In the case of Alaska, our Statehood Act, passed by 
Congress, even included language to affirmatively transfer 
management authority of fish and wildlife management to the 
State. By reserving certain powers to various States, the 
unique needs of each of those States to manage and control 
their resources are preserved. That is why traditionally there 
is State management for all States.
    Alaska, for example, has an excellent history of 
sustainably managing our own fish and wildlife resources for 
the benefit of our citizens, and when the Federal Government 
and the States have been able to work together cooperatively, 
which we usually do, whether through the Pittman-Robertson or 
Dingell-Johnson Acts or other direction from Congress, species 
have benefited, and the overall management has significantly 
benefited.
    Having entered the Union on equal footing, all States enjoy 
management authority unless modified or diminished by an Act of 
Congress. There are many examples of this where Congress does 
act to preempt State management authority whether it be the 
Migratory Bird Treaty Act, Endangered Species Act, the Bald and 
Golden Eagle Protection Act, title 8 of the ANILCA. These are 
all examples where the Federal Government has taken that 
management authority and preempted it. I am not always in favor 
of such preemption, but the authorities of these Acts are not 
nearly as damaging to our States and to our federalism system 
of government as ones carried out by agency fiat.
    In many ways, that is what we are going to focus on today 
where the Congress makes clear that the Federal Government has 
authority, agencies clearly have that prerogative and States 
abide by that. The broader concern is where it is not clear, 
and Federal agencies take actions that do not seem to focus on 
the rule of law or Federal statutes.
    In my State, conservation is not only a matter critical to 
our quality of life and customs and traditions; it is also a 
matter of social justice for our most remote communities who 
depend on nature's bounty for food. Any time the Federal 
Government intrudes into our sovereign responsibility to 
sustain and manage fish and wildlife populations, it is of 
great concern to all Alaskans.
    I want to emphasize a theme that develops sometimes 
unfortunately in this committee is that it is always partisan; 
one side only wants to protect the environment. I think we all 
want to protect the environment. Most of these concerns, in my 
experience, are very bipartisan in terms of protecting the 
environment but also in terms of how States manage their 
resources.
    That is why one major newspaper in Alaska referred to a 
recently proposed rule from the U.S. Fish and Wildlife Service 
that would preempt Alaska's management of fish and game in the 
following way: ``Alaskans should be clearly concerned, even 
alarmed, that these proposed rules by the Federal Government, 
are just more in a long list of attempts by the Federal 
Government to amend the Alaska Statehood Act and have 
preemption in terms of fish and wildlife management.''
    Last fall, the National Park Service finalized similar 
rules that prohibit several forms of hunting in preserves in 
Alaska and would allow superintendents to simply post a notice 
online preempting State wildlife laws and regulations. Calling 
the rule overarching, vague and indiscriminate, the Alaska 
Federation of Natives passed a resolution in opposition, again, 
a group that is very bipartisan in my State.
    That same resolution stated, ``Other Federal agencies, such 
as the U.S. Fish and Wildlife Service, also apply various rules 
that interfere with traditional resource management practice 
that reduces subsistence access to our citizens.'' In both 
cases, the rules being preempted are based on practices that 
subsistence hunters requested to the Alaska Board of Game, 
again in an open, public process to provide food security for 
passing on their traditional practices.
    We are fortunate to have three very distinguished witnesses 
here today to look forward to a more detailed discussion on 
this important issue of the interchange between Federal and 
State management of our important wildlife resources.
    I am glad to have the witnesses here and my Ranking Member, 
Senator Whitehouse, join me for this important hearing. I will 
turn to him for his opening statement.
    [The prepared statement of Senator Sullivan follows:]

                    Statement of Hon. Dan Sullivan, 
                 U.S. Senator from the State of Alaska

    Good afternoon. The purpose of this hearing is to examine 
the interactions States have with the Federal Government as 
they seek to manage the fish and wildlife resources within 
their borders. Since the founding of our Republic, the States--
not the Federal Government--have had primacy over the 
management of wildlife. In the case of Alaska, our Statehood 
Act even included language to affirmatively transfer management 
authority to the State. These rights were further guaranteed 
under the Alaska National Interest Lands Conservation Act 
(ANILCA) of 1980.
    By reserving certain powers to the various States, the 
unique needs of each of those States to manage and control 
their resources are preserved. Alaska, for example, has an 
excellent history of sustainably managing our own fish and 
wildlife resources for the benefit of all Alaskans. And when 
the Federal Government and the States have been able to work 
together cooperatively--whether through the Pittman-Robertson 
or Dingell-Johnson Acts or other direction from Congress--
species have benefited.
    Having entered the union on equal footing, the States enjoy 
management authority unless modified or diminished by an Act of 
Congress. And on a handful of occasions, Congress has modified 
the authority of the States. The Migratory Bird Treaty Act, 
Endangered Species Act, Bald and Golden Eagle Protection Act, 
Marine Mammal Protection Act, and title VIII of the ANILCA are 
all examples of where this is the case.
    Preemption can severely affect the management authority of 
the States, most markedly with the Endangered Species Act, 
which leads to a Federal takeover of species management and 
land use under very specific circumstances.
    I am not always in favor of such preemption, but the 
authorities of these Acts aren't nearly as damaging--to my 
State and to our system of government--as ones carried out by 
agency fiat. When agencies, as they increasingly do, seek to 
bypass the will of Congress through regulations, it's Federal 
overreach at its worst.
    In Alaska, conservation is not only a matter critical to 
our quality of life and customs and traditions. It is also a 
matter of social justice for our most remote communities who 
depend on nature's bounty for food. Anytime the Federal 
Government intrudes into our sovereign responsibility to 
sustain and manage fish and wildlife populations, it's of great 
concern to Alaskans.
    That's why one major newspaper in Alaska referred to a 
proposed rule from the U.S. Fish and Wildlife Service that 
would preempt Alaska's management in this way: ``Alaskans 
should be clearly concerned--even alarmed--that these proposed 
rules are just more in a long list of attempts by the Federal 
Government to amend the Alaska Statehood Act.''
    The National Wildlife Refuge System was created by 
President Theodore Roosevelt in 1903, when he created the first 
refuge by Executive Order. Today, the Refuge System is 
comprised of 560 refuges and 150 million acres that have been 
reserved for the conservation of fish and wildlife. In Alaska, 
the Fish and Wildlife Service manages nearly 77 million acres 
of land in 16 national wildlife refuges.
    These refuge lands are not parks or national monuments, but 
rather are intended for priority public wildlife-dependent uses 
for hunting, fishing, wildlife observation, photography, 
environmental education and interpretation. Refuges are 
conservation units, not preservation units.
    The proposed regulations as currently written seek to alter 
that balance and will fundamentally alter not only how national 
wildlife refuges and the fish, wildlife and habitats on them 
will be managed but will also change the relationship of the 
Service and the individual States from one of cooperation to 
subservience. The proposed Alaska regulations are not based on 
any of the laws I referenced earlier but rather on an ideology 
that was implemented into a policy that the FWS now seeks to 
fold into regulation.
    With these regulations, the Fish and Wildlife Service will 
administratively impose its will via regulatory action. In 
doing so, they will preempt science-based management approved 
by the Alaska Board of Game in an open, public process. For 
those outside of Alaska, know that once this rule is adopted in 
Alaska, there is no limiting its spread to other States.
    Last fall, the National Park Service finalized similar 
rules that would prohibit several forms of hunting in preserves 
in Alaska and would allow superintendents to simply post a 
notice online preempting State wildlife laws and regulations. 
Calling the rule, ``overreaching, vague, and indiscriminate,'' 
the Alaska Federation of Natives passed a resolution in 
opposition. That same resolution stated, ``Other Federal 
agencies such as the U.S. Fish and Wildlife Service also apply 
various rules that interfere with traditional resource 
management practice that reduce subsistence access.''
    In both cases, the rules that are being preempted are based 
on practices that subsistence hunters requested to the Alaska 
Board of Game, again in an open, public process, to provide 
food security or for passing on their traditional practices.
    We're fortunate to have all three of our witnesses here 
today, and I look forward to discussing this important topic 
with them.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. It is good to be 
with you.
    Looking at the witness testimony and the scope of this 
hearing, I guess I should first note that although the word 
environment is in the name of this committee, it does not mean 
we get to stake claim to all things water and all things soil. 
In the written testimonies of both Mr. Vincent Lang and Mr. 
Regan, their reference is to the National Park Service. The 
relationships of State Fish and Wildlife agencies with other 
Federal agencies like the National Park Service and Forest 
Service may be worth reviewing. They are not jurisdictional to 
this committee.
    It is also worth pointing out that a critical witness is 
not present at today's hearing. Though the bulk of testimony 
and discussion from this hearing will be focused on the U.S. 
Fish and Wildlife Service, its director, Dan Ashe, was not 
invited to participate. In a discussion about the Fish and 
Wildlife Service's rules and regulations and how they are 
affecting State agencies, the Service should be here to explain 
and if necessary, defend its actions.
    The problems here may be regional, but whatever the issue, 
I should note that many States manage to get along very well 
with these Federal agencies. Successful cooperation and 
collaboration between State and Federal agencies, I would 
argue, is actually the norm. Serious conflicts are an anomaly.
    In my State of Rhode Island, Cathy Sparks, Assistant 
Director of Natural Resources at the Rhode Island Department of 
Environmental Management, notes, ``A spirit of collaboration 
exists in the Northeast between State fish and wildlife 
agencies and their U.S. Fish and Wildlife Service 
counterparts.''
    Rhode Island has a ``good working relationship with the 
Service, especially with issues concerning national wildlife 
refuges and Endangered Species Act implementation.'' Assistant 
Director Sparks shared particular appreciation for the Fish and 
Wildlife Service's willingness to maintain what she called 
``open dialogue with the State and a track record of being both 
reasonable and forthcoming.''
    I do not think the Rhode Island experience is unique. As 
Mr. Barry indicated in his testimony, Nick Wiley, Executive 
Director of the Florida Fish and Wildlife Conservation 
Commission, mirrored the Rhode Island Department of 
Environmental Management's comments in noting ``the 
longstanding collaborative and positive relationships'' that 
his State has with the Service.
    Effective management of our country's land, air, water and 
wildlife is reliant upon cooperation between States and Federal 
Government. We are not one sovereign or another, and they are 
dual sovereigns. Throughout the many statutes that govern 
natural resource management and the relationship between 
Federal and State authorities, the words ``collaboration,'' 
``cooperation,'' and ``in consultation with'' litter the text.
    Though States are given significant deference in Federal 
fish and wildlife decisionmaking, the laws make clear that 
State interests cannot come at the cost of conservation, 
especially not on the public lands held in trust for the 
enjoyment of all Americans.
    I look forward to working with you on this. I understand 
that Alaska has particular concerns, and perhaps those can be 
dealt with on a State or regional basis. But I would contest 
any premise that this is a national categorical problem, 
certainly based on Rhode Island's experience. We have a 
terrific relationship with our Federal counterparts. I think 
many States enjoy and manage to accomplish the same.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Whitehouse.
    I want to welcome our witnesses. Mr. Ronald J. Regan is the 
Executive Director of the Association of Fish and Wildlife 
Agencies. Mr. Doug Vincent Lang is the former Director of the 
Alaska Division of Wildlife Conservation. Mr. Donald Barry is 
the Senior Vice President, Conservation Program, Defenders of 
Wildlife.
    Witnesses have 5 minutes to deliver their oral statements. 
Longer written statements will be included in the record. I am 
very excited to have such a distinguished group of witnesses 
here today.
    Mr. Regan, let us begin with you. You have 5 minutes to 
deliver your statement.

 STATEMENT OF RONALD J. REGAN, EXECUTIVE DIRECTOR, ASSOCIATION 
                 OF FISH AND WILDLIFE AGENCIES

    Mr. Regan. Thank you, Chairman Sullivan and Ranking 
Democrat Whitehouse, for the opportunity to share with you our 
perspectives on Federal interaction with State management of 
fish and wildlife.
    As the introduction suggested, I am Ron Regan, Executive 
Director of the Association of Fish and Wildlife Agencies, of 
which all 50 State fish and wildlife agencies are members. The 
Association's mission, which has not changed significantly from 
our founding in 1902, is to protect State agency authority to 
conserve and manage the fish and wildlife within their borders.
    State governments hold title to fish and wildlife as 
trustees of these resources for their citizens. Regulating take 
for hunting and fishing resides under that authority. Case law 
at all levels up to the Supreme Court upholds that trustee 
ownership in the State agencies.
    Where Congress has given Federal agencies certain 
conservation responsibilities and thus authority for fish and 
wildlife, Congress has also affirmed that State jurisdiction is 
concurrent with the Federal authority starting with the 
Migratory Bird Treaty Act in 1918 and continuing for federally 
listed threatened and endangered species under the ESA and 
certain migratory and anadromous fish under the Anadromous Fish 
Conservation Act.
    Congress affirmed State agency authority for fish and 
wildlife management on Federal lands in organic Acts for the 
U.S. Fish and Wildlife Service, the Bureau of Land Management, 
the U.S. Forest Service and the Department of Defense military 
installations. Each statute directs that to the maximum extent 
practicable, hunting and fishing seasons and bag limits shall 
conform to State agency regulations. In general, State agencies 
enjoy a good working relationship with the Federal agencies, 
but they strive constantly to improve that for the benefit of 
fish and wildlife resources and constituents.
    Contemporary examples include State-Federal task force 
collaboration on administration of the Wildlife and Sport Fish 
Restoration Program and Federal implementation of the ESA. 
Recent conservation success stories for greater sage-grouse, 
lesser prairie-chicken, monarch butterflies and the New England 
cottontail attest to the strength of the State-Federal 
partnership.
    That being said, my written testimony suggests there are 
foundational, jurisdictional concerns with managing elk in Wind 
Cave National Park in South Dakota, recreational fisheries 
management and access in the Biscayne National Park of Florida 
and wilderness designations for two national forests in 
Arizona.
    However, today I will focus my brief time on proposed 
rulemaking for Alaskan national wildlife refuges and preserves 
that would change how the Alaska Department of Fish and Game 
manages fish and wildlife resources on those refuges.
    The Association appreciates the Chair's accepted amendment 
to the Bipartisan Sportsmen's Act which would prohibit the Fish 
and Wildlife Service from further action on its proposed 
regulation and preclude implementation of the like National 
Park Service regulation. The Association has requested a 
comment period extension, and we will continue to work with the 
Fish and Wildlife Service to address our concerns.
    If enacted, the proposed rule would usurp Alaska's 
authority to manage fish and wildlife for sustained yield 
including predators and large ungulates on national wildlife 
refuges in favor of a hands-off or passive management paradigm 
which would adversely impact Alaska fish and game objectives 
for resident fish and wildlife. The proposed rule takes what is 
now national policy on biological integrity, diversity and 
environmental health and elevates it to a regulation, thereby 
giving it preeminence in Alaska over other national wildlife 
refuge policy and also over ANILCA.
    This action may result in litigation that seeks to apply 
that policy to the entire national wildlife refuge system under 
the argument that what is good for Alaska should be good for 
all refuges given that it is a national system. A recent public 
relations appeal by the Humane Society of the United States to 
support this proposed rule already refers to it as applying to 
all national wildlife refuges.
    I will conclude my remarks with two legislative and policy 
remedies among several that were offered in my written 
testimony. First, the use of savings clauses in Federal law 
with respect to State authority for fish and wildlife 
management needs some revision and certainly more prominent 
placement in statutes or legislation than it now occupies.
    Second, the Association recommends revising the several 
Federal agency organic Acts to define with more certainty and 
clarity the phrase ``in cooperation with the States'' at the 
appropriate places with direct fish and wildlife management on 
Federal lands and/or in statutes that recognize the concurrent 
jurisdiction of State agencies with Federal agencies for fish 
and wildlife.
    The Association would be pleased to work with committee 
staff on both provisions, and thank you very much, Mr. 
Chairman, for this opportunity to share these remarks.
    [The prepared statement of Mr. Regan follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    Senator Sullivan. Thank you, Mr. Regan.
    Mr. Barry.

STATEMENT OF DONALD BARRY, SENIOR VICE PRESIDENT, CONSERVATION 
                 PROGRAM, DEFENDERS OF WILDLIFE

    Mr. Barry. Thank you, Mr. Chairman.
    I would like to summarize five points from my testimony 
that is being submitted formally to the record.
    Unfortunately, hearings like this can create the false 
impression that the rare exception of problems and conflict is 
actually the norm. It is what I refer to in my testimony as it 
gets you to start focusing on the hole instead of the doughnut.
    My testimony, including the quotes from the State Fish and 
Game director of Florida, indicates the norm throughout most of 
the United States. He described the working relationship he had 
with the Fish and Wildlife Service and the other State 
directors in his region in the Fish and Wildlife Service as the 
``no daylight'' policy.
    From his perspective, there is no daylight between the 
State fish and wildlife agencies and the Fish and Wildlife 
Service. He acknowledged that there would be some disagreements 
and even some strong disputes, but they worked together to work 
through them, and then they move on. He felt it was an 
extremely constructive relationship. He believed that most of 
the most of the State directors throughout the Nation feel the 
same way.
    One court referred to this relationship as cooperative 
federalism. I think that is a term that describes the way it 
has worked fairly well. I also believe that given the 
overwhelming success in the Fish and Wildlife Service and the 
States working together, no compelling case has been made yet 
that there needs to be a significant change or amendments to 
the underlying Federal laws, and Congress should not do so now.
    I would also like to shift my focus to ANILCA since that 
seems to be the primary focus of this hearing. It is my view 
that ANILCA does not require the Fish and Wildlife Service to 
accept lock, stock and barrel the State of Alaska's anti-
predator program for national wildlife refuges.
    In fact, I think my testimony clearly demonstrates that 
ANILCA requires the exact opposite. It requires the Fish and 
Wildlife Service to reject such an outdated approach to 
hammering predators on wildlife refuges as required by the 
State of Alaska's intensive management legislation.
    I would note that even the Fish and Wildlife Service and 
the Alaska Department of Fish and Game's 1982 MOU acknowledges 
the authority and the responsibility of the Fish and Wildlife 
Service to reject the State's animal damage control program 
where and when it believes it is incompatible with the purposes 
for a given refuge.
    Even in 1982, the State of Alaska acknowledged that the 
Fish and Wildlife Service was only required to substantially 
try to accommodate the State Fish and Game Predator Control 
Program but was not obligated to do so.
    It is my view that national wildlife refuges in Alaska were 
intended to be a lot more than just game factories for sport 
hunters. ANILCA's natural diversity management goal for each 
wildlife refuge, which was included in sections 302 and 303 of 
ANILCA, and I should also note that in 302 and 303 which 
expanded the wildlife refuges in Alaska, a number of those new 
units specifically mentioned bears and wolves as some of the 
key species those wildlife refuges were being created to focus 
on.
    From my perspective, when Congress added the requirement 
that national wildlife refuges in Alaska be managed to conserve 
in the natural diversity the species of key focus in those 
refuges and included various different wolves and bears in some 
of the different refuges, it seems to me to be impossible to 
conclude that Alaska, under ANILCA, was being given the 
authority and the power to adopt the very heavy anti-predator 
program designed to suppress the population levels of predators 
within those national wildlife refuges.
    It is also very clear under ANILCA that all sport hunting 
in the national wildlife refuges in Alaska needs to be 
compatible and consistent with that natural diversity 
management goal. It is also unfortunate, I believe, that an 
amendment has been adopted to the bipartisan Sportsmen's Bill 
to block the ability of the Fish and Wildlife Service to 
finalize their rule. I think it is going to increase the 
likelihood that bill may not ever be accepted and adopted by 
the Administration and might generate a veto.
    I should also say that the wildlife management and refuge 
provisions in ANILCA are not in conflict with the 1997 Refuge 
Improvement Act. Both statutes can apply and are in sync.
    The Alaska refuges are to be managed under ANILCA and be 
managed under the natural diversity management goal, and all 
national wildlife refuges under the 1997 Refuge Improvement Act 
are to be managed under a new broader management mission and 
vision for the national wildlife refuge system to ensure that 
biological integrity, diversity and environmental health of 
each refuge in the system is maintained. Therefore, it is my 
view that there is no conflict between the requirement under 
ANILCA to management for natural diversity and the requirement 
of the 1997 Act to management for the biological integrity, 
diversity and environmental health of each refuge.
    My time is up so I will quit at that point and look forward 
to taking questions.
    [The prepared statement of Mr. Barry follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Sullivan. Thank you, Mr. Barry. I appreciate your 
interest in ANILCA as you can imagine.
    Mr. Vincent Lang, may we have your testimony, please, sir?

    STATEMENT OF DOUG VINCENT LANG, FORMER DIRECTOR, ALASKA 
               DIVISION OF WILDLIFE CONSERVATION

    Mr. Lang. Senator Sullivan and members of the committee, 
thank you for inviting me to discuss Federal overreach and 
wildlife management in my State of Alaska.
    My name is Doug Vincent Lang. Today, I will speak as a 
representative of Safari Club International and from my 
perspective as a former State chief wildlife manager. SCI is a 
world leader in preserving the freedom to hunt and promoting 
wildlife conservation. Our chapters in Alaska are some of the 
most effective hunter conservation groups in my State.
    When you consider the uniqueness of Alaska's relationship 
with its wildlife resources, it is not surprising that the 
framers of my State's constitution required active management 
of my State's fish and game for the sustained yield and the 
many benefits it provides.
    It is also not surprising that the historic intent and 
incredible wisdom of the framers of the U.S. Constitution 
reserved certain powers to the individual States become crystal 
clear. This includes recognition that it is the responsibility 
of the States to manage and control their natural resources for 
their unique needs.
    For Alaska, Congress specifically recognized and guaranteed 
Alaska's right to manage and control its resources under our 
State constitution as part of our statehood compact. For the 
past decade, my State has begun to experience increased 
administrative intrusions by Federal agencies into the 
management of our fish and game that some unresolvable given 
increasingly divergent administrative management philosophies.
    The intrusions are wide ranging. They include misuse of the 
Endangered Species Act. As an example, let us look at the 
ringed seal. These seals were listed as a threatened species 
based solely on speculative models forecasting possible 
reductions over a 100-year timeframe. Yet, these seals 
currently number in the millions and are expected to remain at 
these numbers through the mid-century. Such listings are 
unnecessary and allow Federal agencies to exert management 
control over the listed species as well as their landscapes.
    The National Park Service recently finalized new 
regulations governing wildlife in Alaska's national preserves 
over my State's objection. In these regulations, the Park 
Service closed preserves to hunting opportunities despite there 
being no conservation concerns. The Park Service chose to 
substitute their agency ethics and values as to what 
constitutes appropriate hunting methods, ignoring publicly 
adopted State regulations that allowed those practices.
    Now we see the U.S. Fish and Wildlife Service proposed new 
rules that administratively exert Federal management control 
over wildlife in Alaska's national wildlife refuges. These 
rules fundamentally will alter the Federal Government's 
longstanding wildlife management relationship with Alaska.
    The Service is using their administratively adopted 
biological integrity policy to thwart protections of State 
management authority that Congress includes in the National 
Wildlife System Improvement Act and in the Alaska National 
Interest Lands Claim Conservation Act, both of which confirm 
deference to State management authority.
    By incorporating national diversion policies into their 
permanent regulations, the Service is replacing time proven, 
traditional active State management with a hands-off management 
approach. Let me give you an example of how this plays out in 
the real world.
    On Unimak Island in Alaska, the Service has elevated 
natural diversity and its hands-off management policy over 
sound principles of wildlife management. On this island, 
without active management of both predator and prey 
populations, an indigenous caribou population has a high 
likelihood of disappearing.
    The Service determined that under their natural diversity 
guidelines, it would be acceptable for the caribou on this 
island, in the Service's own words, to blink out; this despite 
one of the refuge's congressionally established purposes being 
the conservation of these very caribou and their subsistence 
uses. The application of this hands-off approach throughout 
Alaska's refuges could put many other populations of moose, 
caribou, deer and elk at risk and as a result, seriously reduce 
opportunities for hunters including subsistence hunters.
    Under a hands-off approach, it is questionable whether 
Alaska will be allowed to continue to actively manage its sheep 
and bear populations for trophy hunting opportunities. Will 
Alaska be allowed to continue to actively manage its salmon 
runs for optimal sustained yields since that is an active 
management program? Will subsistence hunters be required to 
adopt fair chase standards?
    Taken together, these agency actions and others represent 
an unprecedented administrative intrusion by Federal agencies 
into the State's traditional role as principal manager of fish 
and wildlife. It is occurring despite congressional assurances 
from a variety of legislative savings clauses which statutorily 
preserve the State authority to manage.
    In Alaska, it is preventing my State from fulfilling our 
sustained yield mandates that our constitution tells us we must 
and is impacting my State's ability to manage and provide 
sustained hunting and fishing opportunities.
    Those will suffer the most are those who hunt and fish in 
Alaska including subsistence hunters. We ask Congress to work 
with us to preserve the rights and opportunities of Alaskan 
hunters and fishers to prevent these Federal intrusions.
    The State fish and game model is a proven success that 
should be built upon, not replaced with a new, one size fits 
all Federal conservation model. We need congressional action to 
stop these administrative intrusions.
    The Safari Club applauds the efforts of Senator Sullivan 
toward this end. Safari Club International asks Congress for 
assistance toward this end in protecting Alaska's hunters.
    Thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Lang follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
       
    Senator Sullivan. Thank you, Mr. Lang.
    I would like to begin by submitting for the record a letter 
from Congressman Don Young on the House side who is interested 
in commenting on the subject matter of this hearing, without 
objection.
    [The referenced information follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Sullivan. I also want to mention Senator Whitehouse 
and some of the testimony at the beginning of the hearing today 
talked about the importance of a cooperative attitude or a 
cooperative relationship. We could not agree more.
    I remember this committee, on both sides of the aisle, 
certainly thinks that is important and that is the goal. In 
many ways, that is what the hearing is about, how do we get 
there. I think that is a goal we all share.
    The Ranking Member mentioned Dan Ashe. I could not agree 
more. We would certainly be glad to have the Fish and Wildlife 
Service. As a matter of fact, he has testified before the full 
committee. In September, he testified here before a 
subcommittee. Unfortunately, I do not think any of the members 
of the other side of the aisle attended that hearing. We will 
have Mr. Ashe here again to answer some of these questions.
    What we wanted to do today was to not have Government 
witnesses but to have some of the practitioners who I think can 
help bring an objective view and then also a view from the 
States where this issue is having the most impact.
    Mr. Regan, I wanted to start with a question. In 2014, the 
AFWA published a report entitled, Wildlife Management 
Authority, the State Agency's Perspective. Can you explain what 
led to the drafting of that report, what recommendations it 
includes, and how that relates to the topic we are discussing 
today?
    Mr. Regan. Yes, I would be glad to, Mr. Chairman. In fact, 
I have a copy here to submit for the record.
    Senator Sullivan. Without objection.
    [The referenced report was not received at time of print.]
    Mr. Regan. I will say just a couple of things about this. 
First of all, I have been the executive director at the 
Association for 7 years. Throughout that 7 years of my tenure 
here in D.C., there have been ebbs and flows to the concerns 
about the extent to which Federal and State agencies 
effectively collaborate.
    I would say, as I said in my opening remarks, by and large, 
there is a great record of collaboration and partnership across 
the State and Federal spectrum. However, as with any family 
situation, if you will, there are issues that manifest 
themselves that create challenges and stresses in working 
through issues.
    This particular document to which you refer, Mr. Chairman, 
is really the product of those kinds of ebbs and flows over the 
past 7 years since I have been at AFWA. Our president at the 
time wanted to put some of these issues to rest. He appointed a 
task force which was chaired by the State director from Arizona 
and comprised the State directors to take a look at the broad 
spectrum of Federal laws, regulations, policies and other kinds 
of guidance with respect to how State fish and wildlife 
agencies do their work.
    This document is the product of that committee's work. It 
was approved by the State membership. An annual meeting took 
place 2 years ago. It summarizes our best take on that 
relationship.
    Senator Sullivan. What was the impetus behind it? Do you 
think there was a relationship between the State and Federal 
Government in this area that needed to be addressed?
    Mr. Regan. Yes. I would say that these ebbs and flows, 
these tensions that emerge over either public lands management 
policy, wilderness policy, differing perspectives in different 
parts of the country by different regional line staff or 
administrators, coupled with some of the challenges that go 
with working through hard issues like Endangered Species Act 
listings and that sort of thing.
    It was really driven not by any one particular issue but 
the overall perception that there was always this undercurrent 
ebbing and flowing of concern about the State and Federal 
relationship.
    I will conclude, if I might, by not only referring to this 
document, but this document has helped set the stage for a 
couple of different executive leadership retreats, both with 
State agency leaders and leaders within the Forest Service and 
the Fish and Wildlife Service to create a better dialogue prior 
to issues becoming as big as they might.
    Senator Sullivan. Thank you.
    Mr. Lang, Mr. Barry actually mentioned the 1980 MOU between 
the Department of Fish and Game in Alaska and the Fish and 
Wildlife Service. Are you familiar with that MOU? Do you think 
that is being abided by in the light in which it was drafted?
    Mr. Lang. I am familiar with that MOU. When I was director 
of the Wildlife Division of Conservation of Alaska Fish and 
Game, we tried to work with our Federal partners in the Fish 
and Wildlife Service to implement that MOU.
    Unfortunately, the Federal Government was not abiding by 
much of the terms. For instance, we were not given opportunity 
to go out and access fish and wildlife and be able to monitor 
those fish and wildlife populations.
    Senator Sullivan. The right to do that exists under the 
Statehood Act, ANILCA and many other Federal laws, correct?
    Mr. Lang. Correct and as also acknowledged under the MOU. 
In essence, the MOU is there, but it does not really work as 
well as was intended.
    The other thing I would like to point out is that the MOU 
says we are going to manage for natural diversity. The State of 
Alaska does manage for natural diversity, but the State of 
Alaska considers ecosystems as a functional part and humans as 
being a functional part of that ecosystem. We manage those 
ecosystems for human benefit.
    When we signed that MOU back in 1982, the Fish and Wildlife 
Service and the Federal Government agreed that humans were a 
functional part of that ecosystem. Now instead, we are seeing 
the Fish and Wildlife Service believes humans are a threat to 
ecosystems and they are increasingly managing for natural 
diversity to minimize human impact on species.
    I think that is a fundamental difference in Alaska. We have 
continually managed ecosystems for human benefit. The Federal 
Government is managing ecosystems to minimize human impact on 
those ecosystems.
    Senator Sullivan. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    First, I want to say to the Chairman that one of the 
traditions of the Senate is that when there is a home State 
issue with a Senator, we tend to try to rally around one 
another. If something were going badly wrong in Rhode Island, I 
would hope you would be willing to help me and in the same 
spirit to the extent there were issues in Alaska where I can be 
helpful, I would like to try to be helpful also.
    Senator Sullivan. I would.
    Senator Whitehouse. I also think it is important, I do 
think where there are problems, they may not be nationwide 
problems, but local problems are real problems as you know very 
well.
    I would like to shift my questioning a little bit and let 
me start with Mr. Lang. You are here representing Safari Club 
International?
    Mr. Lang. Yes, I am representing Safari Club International.
    Senator Whitehouse. What is Safari Club International's 
position on global climate change?
    Mr. Lang. I think Safari Club International believes that 
global climate change is occurring but that you can mitigate 
those actions through a variety of different means. Climate is 
affecting wildlife in a variety of different manners.
    Just like any other stressor, climate change is one of 
those stressors that we as managers will manage for. It is no 
greater or no lesser than any other stressor. For instance, we 
will manage climate in the short and long term as we would any 
hunting pressure or anything else that would affect the long 
term sustainability use of wildlife on our State lands that we 
manage.
    Again, I think we are managing it as any other stressor 
that occurs out there.
    Senator Whitehouse. Your described--your organization has 
it as a major concern? I am reading from your Web site. Would 
that be accurate?
    Mr. Lang. What I am saying is that I believe that it is a 
concern but is no more or greater a concern than any other 
stressor we are doing in terms of managing wildlife.
    Senator Whitehouse. Do you disagree with Safari Club 
International's Web site statement that it is a major concern?
    Mr. Lang. I did not say that. I said it is not the most 
significant concern. It is a concern, but in the short term, 
there may be more significant concerns affecting wildlife.
    Senator Whitehouse. In the long term, can you think of any 
more likely to affect wildlife?
    Mr. Lang. I think as you are moving forward in time, human 
use of wildlife is something we all need to consider. For 
instance, I think one of the longer term impacts of managing 
wildlife is going to be managing wildlife in the urban 
interface.
    We have been very successful in restoring wildlife over the 
last 150 years. Now I think one of the stressors is going to 
be, how are we going to turn that success into managing 
wildlife at the urban interface.
    Senator Whitehouse. The coyotes in my trash?
    Mr. Lang. Yes.
    Senator Whitehouse. Mr. Barry, global climate change, a 
major concern?
    Mr. Barry. Absolutely.
    Senator Whitehouse. In what way does it bear on protection 
of wildlife?
    Mr. Barry. From a wildlife conservation point of view, I 
would say it is one of the biggest concerns, if not the biggest 
concern. It is going to cause a huge disruption in migration 
patterns. I think along the northeastern coastline, you have 
migratory birds that come back and have been coming back 
probably since time immemorial. They have arrived at a certain 
time because that is when some of the crabs pop up.
    Senator Whitehouse. You are talking about Delaware now?
    Mr. Barry. Yes, and all of a sudden it is out of sync. The 
birds are coming back and the food supply is not there.
    We are seeing this with other migratory patterns that are 
being disrupted. Food sources are being disrupted. In Alaska, 
the polar bears are in big trouble because of climate change. 
We think from a wildlife conservation point of view it is 
probably the largest long term, big time threat.
    Senator Whitehouse. Mr. Regan, a major concern for 
wildlife?
    Mr. Regan. Yes, I would say it is a major concern. The 
Association of Fish and Wildlife Agencies has one dedicated 
staff person.
    Senator Whitehouse. You have a whole climate change 
committee, don't you?
    Mr. Regan. We have a climate change committee.
    Senator Whitehouse. You take it seriously?
    Mr. Regan. Yes, we take it seriously. We are working with 
Federal agencies and States to think about climate change 
adaptation and providing tools and best management practices to 
help the States think through the adaptive challenges for the 
future.
    Senator Whitehouse. You are all wonderful people. But as 
the Senator from the Ocean State, let me urge that we not 
forget the oceans. We are a terrestrial species, but we get a 
lot from the oceans in terms of cooling of the planet, 
oxygenation of the atmosphere, fish that we eat, and the place 
I think we might be hitting our ecosystem the hardest is 
actually in the oceans.
    Mr. Chairman, back to you.
    Senator Sullivan. I agree with my Ranking Member on the 
importance of the oceans. We have a lot of bipartisan agreement 
on these issues.
    Senator Rounds.
    Senator Whitehouse. We may be the Ocean State, but Senator 
Sullivan actually has more ocean.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Regan, in your testimony, you discuss the conflict 
between the South Dakota Department of Game, Fish and Parks and 
the Park Service management at Wind Cave National Park. I am 
curious about this because of the fact that it has to do with a 
South Dakota Fish and Wildlife agency.
    The GF&P would prefer to use hunters to manage the elk 
population in this particular national park. However, the Park 
Service has found that this proposal to hunt them was 
unacceptable due to statutory prohibitions against hunting in 
the park.
    Further, when the Park Service informed Game, Fish and 
Parks that they would cull the elk, which in South Dakota terms 
means they would shoot them and let them lay. Only after 
significant disagreement from the Game, Fish and Parks did the 
Park Service agree to consider allowing the culled elk to be 
distributed to needy South Dakota families.
    That decision has not been made yet. In fact, they have not 
been able to come to an agreement yet with the Park Service.
    I suspect this is part of the reason why the State Game, 
Fish and Parks Department get frustrated with their Federal 
partners who sometimes do not seem to be partnering with them 
in anything that is considered close to being a local concern.
    While modifying the Park Service's authorizing legislation 
to allow hunting as a management tool would solve the problem 
in Wind Cave National Park, it is not a comprehensive solution 
to statewide wildlife management, nor is it a solution to the 
tension between State and National Park Service or Fish and 
Wildlife Service officials.
    State officials know how to best manage wildlife in our 
State, and they should be the chief decisionmakers when 
deciding how best to conserve our wildlife.
    The debate over how to manage an elk population has now 
spanned several years in this particular case with no solution 
to the over population of elk. South Dakota GF&P reached out to 
the Park Service in 2015 to set up a meeting, but the Park 
Service has yet to confirm a date to continue this 
conversation.
    How do these types of longstanding disagreements between 
State and Federal officials over wildlife management impact the 
overall health of the wildlife population that we all propose 
to want to protect?
    Mr. Regan. That is a big question, Senator. I think I will 
start by saying when I first began my career with the Vermont 
Fish and Wildlife Department, about 30 years ago, the State of 
Vermont Fish and Wildlife Agency was having a terrible time 
working with the U.S. Forest Service on the Green Mountain 
National Forest.
    The agency heads in that situation almost came to blows 
over whether or not certain kinds of trees should be cut on the 
forest for timber or potentially to the detriment of the 
whitetail deer resource in the State of Vermont.
    These kinds of issues emerge. I think at the end of the 
day, what is required is a major commitment to think about 
science, think about partnerships, and think about working 
through issues.
    Unfortunately, with turnover in agencies, the bureaucracies 
of managing issues, and then not to mention the overlay of the 
judicial system sometimes professional management is taken away 
from the professional managers.
    Senator Rounds. I am just curious, do you see anything that 
a change in law or change in statute or a directive in terms of 
the regulatory processes that could be done to basically reach 
or help reach a long term solution to reinforce the State 
officials' ability to control and manage wildlife populations 
in their own States?
    Mr. Regan. Yes, Senator. I pointed out a couple of those in 
my oral testimony. There is more detail in the written 
narrative. The whole notion of revisiting and making sure that 
the savings clauses are contemporary and adequate for the 
future when thinking about State management authority is 
important.
    In my written testimony, you will note that sometimes these 
savings clauses find their way at the end of legislation as 
opposed to being on the front end. Our opinion is when that 
occurs, the courts may not give them the kind of deference they 
should in thinking through decisions.
    We also suggest another remedy concerning close 
collaboration or coordination with the States.
    Senator Rounds. With the Chair's indulgence, I have one 
more quick question.
    Are you aware of any other cases where U.S. Fish and 
Wildlife or Park Service officials have recommended the culling 
or killing of a game animal and then simply suggested they be 
allowed to rot where they are shot?
    Mr. Regan. Off the top of my head, no.
    Senator Rounds. Thank you.
    Senator Sullivan. Chairman Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was really coming here for two purposes. One was to learn 
a little bit more about Alaska and the other was to let this 
committee and the witnesses know that the problems you have up 
there are not unique to Alaska. We have had similar problems.
    There is a thing called the Sikes Act that the Secretary of 
Defense in collaboration with Fish and Wildlife would take care 
of the wildlife on military establishments. Are you familiar 
with that, Mr. Lang?
    Mr. Lang. Yes, I am.
    Senator Inhofe. Is that working pretty well?
    Mr. Lang. At times, it works well, and at times it does not 
work very well. I think it works better than the Refuge System 
Improvement Act because it clearly recognizes State authority.
    Senator Inhofe. Are any of you familiar with the lesser 
prairie-chicken issue? It is unique to five States, Oklahoma, 
Colorado, Kansas, New Mexico and Texas.
    We had a five-State plan that goes out for the purpose of 
taking care of and evaluating what is happening with the lesser 
prairie-chicken. Five States all agreed and signed off on this. 
Somehow there is this perception that if you are a landowner or 
a rancher, somehow you do not want to conserve. That is so 
wrong. One of the few really good things that has worked is the 
partnership program.
    In this case, you had five States that had experts in those 
States, the landowner stakeholders in those States all agreeing 
that we done a very good job with the lesser prairie-chicken, 
and between the years of 2014 and 2015 our population of 
prairie-chickens actually increased by 25 percent. It does not 
get any better than that, does it? Yet, they went ahead and 
gave an endangerment listing.
    We have an example in Oklahoma of what does work and what 
does not work. How about you, Mr. Regan; can you tell me the 
logic behind that decision in spite of the effort that went 
into it and the successes we had?
    Mr. Regan. You are talking about the prairie-chicken. We 
were clearly disappointed as State agencies that a threatened 
listing was provided by the Federal Government. On the other 
hand, that was certainly better than managing to an endangered 
listing.
    Senator Inhofe. No, that is not the point. The point is any 
listing at all when the populations increased and you had the 
very best not in just one State, but five States agreeing. I 
might add so did the members of the U.S. Senate from all five 
of the States, of which some were Democrats and some were 
Republicans.
    Mr. Regan. I think one of the key story lines there, aside 
from the listing decision, was the ability of those five 
States, including your home State, Senator, to come together 
with a proactive landscape level, voluntary conservation 
program to secure and manage prairie-chicken habitat for the 
future.
    I think that is the big plus or bottom line story which 
shows the ability of the States to come together and 
demonstrate a willingness and effectiveness to grapple with a 
large, landscape scale conservation issue.
    Senator Inhofe. Yet, they still came to the conclusion.
    Mr. Regan. That is correct.
    Senator Inhofe. That is my whole point. I agree with 
everything you said up to that point.
    That is all I have, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    We meet today to discuss the Federal Government's 
encroachment on State rights to manage fish and wildlife 
populations. The North American Model of Wildlife Conservation 
dictates that fish and wildlife are for the non-commercial use 
of citizens and should be managed in a way that ensures they 
are available at the optimum population levels indefinitely. 
There is certainly a role for both the States and the Federal 
Government in this process.
    In recent years, however, the Federal Government has 
expanded its role in both managing populations and dictating 
how States should manage populations. Not only do States fund 
much of their conservation and management programs through 
local excise taxes, but they also have more on-the-ground 
expertise about local populations. Therefore, States should 
have a significant role in working with the Federal Government 
and the private sector to ensure the most sensible fish and 
wildlife management programs are adopted and implemented.
    In Oklahoma, we have worked together with local landowners, 
businesses, and State agencies to develop a plan for the 
conservation of the lesser prairie-chicken. The Five State Plan 
has worked. In fact, estimates show that population numbers for 
the lesser prairie-chicken climbed by almost 25 percent between 
2014 and 2015. This is just one of many examples of the 
strength and success of State management plans, when given the 
opportunity to thrive.
    This hearing today explores the need to re-balance the 
relationship between Federal and State governments. More 
directly, States must have more control over their fish and 
wildlife populations. I thank Senator Sullivan for holding this 
hearing today, and I look forward to the testimony of our 
witnesses.

    Senator Sullivan. Thank you, Chairman Inhofe.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Regan, I have a couple of questions. In 2014, the 
Senate and Congressional Western Caucus released a report 
entitled Washington Gets It Wrong and the States Get It Right, 
a report on State environmental stewardship. It runs through 
what happens nationally as well as what is happening locally 
and how we think the States continue to do a much better job 
than Washington.
    It highlights the significant boots on the ground in terms 
of biologists, scientists and States in the West like Wyoming. 
We have nearly 300 people in Wyoming, biologists, scientists 
and support staff at the Wyoming Game and Fish Department. They 
live and work in Wyoming, not in Washington. They live where 
the species live.
    There are people in my State who have pledged to protect 
our species, including the gray wolf population. I think these 
dedicated men and women should be the ones we should be 
entrusting to protect Wyoming's wildlife. Can you give me your 
thoughts on that?
    Mr. Regan. Certainly, Senator. We certainly agree that 
State fish and wildlife agency managers are on the front lines 
of enforcement and delivering fish and wildlife conservation in 
this country. That is what the Association is all about, trying 
to make sure no harm is done to that principle, that delivery 
and that conservation effectiveness for the future.
    Senator Barrasso. Mr. Barry, your organization says in your 
wolf plan entitled Places for Wolves, A Blueprint for Continued 
Wolf Restoration and Recovery in the Lower 48--you say, ``No 
matter how ideal the habitat, however, it is ultimately up to 
the people to determine if wolves will be allowed to survive in 
any given area.''
    The U.S. Fish and Wildlife Service has said that the gray 
wolf is recovered and that the agency has approved the plan the 
State of Wyoming has put together to ensure the protection of 
Wyoming's wolves. If it is up to the people to protect the 
wolves, I wonder why won't outside activist groups, like your 
organization, not allow the people of Wyoming to protect our 
wolves if the U.S. Fish and Wildlife Service approves the 
management plan and the science says the gray wolf is 
recovered.
    Mr. Barry. Senator, a district court judge disagreed that 
the Fish and Wildlife Service had appropriately made the right 
decision.
    Senator Barrasso. The district court judge was not in 
Wyoming and does not really know Wyoming, does not have an 
ability to understand the situation, and did not study it.
    Mr. Barry. I am just saying that a Federal judge, when 
given a chance to review the record, concluded the Fish and 
Wildlife Service inappropriately delisted the wolf.
    Senator Barrasso. What was the scientific basis for that, 
do you know?
    Mr. Barry. I could not tell you off the top of my head. I 
have not seen the record.
    Senator Barrasso. You are not familiar with the specifics 
of the case?
    Mr. Barry. Not the specifics.
    Senator Barrasso. And probably would be happy with that.
    Mr. Lang, you shared many of the same concerns that Mr. 
Regan raised in his testimony. In Alaska and across the West, 
the Federal Government is increasingly requiring the public and 
the States to take a hands-off approach to public lands. This 
means the public and the States have less interaction and 
access to public lands.
    Would you agree that ultimately this hands-off approach to 
wildlife and public land management could be detrimental to 
conservation of the very species we all work to preserve if 
Washington bureaucrats on the other side of the country are 
calling all the shots?
    Mr. Lang. The State conservation model is built on the use 
or pay system. The further you separate those users from the 
benefits they will gain from those systems, the less they will 
be willing to pay and over the long term pay for the management 
and conservation of those resources. That model is the Pittman-
Robertson Fund and the Dingell-Johnson Fund.
    You have to provide benefits off refuges and parklands 
across our Nation. If you do not, they will become areas that 
are not of concern to people, and the people will not be 
willing to pay for the long term protection and conservation of 
those areas.
    Hunters are some of the largest payers for conservation in 
our Nation. You cannot exclude people from the management of 
resources. I guess that is the bottom line. Increasingly, as I 
am seeing the Fish and Wildlife Service's management model, it 
views people as a threat, not as an integral part and not 
something you need to provide benefits for.
    In my State, if you are living a rural lifestyle far away 
and you are dependent upon local resources for your food, you 
cannot just let nature's cycles going up and down provide for 
that. You cannot have a decade where there is no moose near 
your village. You have to manage for sustained moose 
populations.
    In the example I gave, caribou blinking out on Unimak 
Island is not good for hunters there, not good for subsistence 
users to allow them to someday, some century from now, swim 
back out to that island and reestablish the caribou population.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Barrasso.
    I have a couple follow up questions. My colleague, Senator 
Whitehouse, mentioned the tradition in the Senate that when we 
have an issue here, actually the proposed Fish and Wildlife 
Service rule that came out on January 8 was solely focused on 
Alaska.
    In the hearing where we had an amendment to cancel out that 
rule, I specifically asked members of this committee, by using 
the example of if there was a Federal rule dealing with the 
California movie industry only or the Maryland crab industry 
only, or the Delaware chemical industry only, I certainly would 
help my colleagues on the committee.
    The Fish and Wildlife Service dealt with an Alaska fish and 
game management issue only. I would agree with Senator 
Whitehouse's comment about the Senate colleagues rallying 
around each other when there is a Federal action specific only 
to your State. Unfortunately, in our last hearing, that did not 
happen, which is one of the reasons we wanted to hold this 
hearing but to talk about the broader issue.
    Focusing on that regulation, Mr. Lang, in your testimony 
you talked about the proposed January 8 Fish and Wildlife 
Service rule that would allow the Federal Government to preempt 
State hunting regulations based on their personal ethics or 
personal preference. Can you explain that a bit more? Can you 
give an example of what you were talking about?
    Mr. Lang. Let's look at the Kenai National Wildlife Refuge. 
That refuge was originally established as a moose range before 
it was established as a national wildlife refuge. It was a 
Presidential executive order that said you have to maintain a 
significant population of moose on that former moose range, now 
a refuge.
    Under the natural diversity guidelines, the State of Alaska 
is now being told that we have to let moose cycle in their 
natural cycles on that range. We can no longer manage them to 
provide for the long term benefits that have been provided, 
including subsistence.
    We could see moose numbers go incredibly low, low enough 
that there is no harvestable surplus for hunters or very high 
where they could actually damage the refuge and the food base 
they need to stay sustainable.
    As the State of Alaska, we want to actively manage the 
moose population to provide for human benefits, including 
subsistence use and a harvestable surplus. We do not want that 
population to widely fluctuate.
    In working with the Service, we are growing increasingly 
frustrated with the inability to manage fire, which is a 
habitat component; manage the predator numbers which are 
incredibly important in terms of how they affect moose numbers; 
and it is all driven around these natural diversity guidelines 
where human interference on the national wildlife refuge system 
is increasingly disallowed versus the State's approach to 
actively manage to provide for long term sustained yields and 
benefits.
    Senator Sullivan. What do you mean by personal preference 
or personal ethics when you talked about that as part of the 
rule?
    Mr. Lang. Let us again go the Kenai National Wildlife 
Refuge. The Fish and Wildlife Service has determined that 
baiting brown bears is not an ethical practice for the taking 
of brown bears.
    Even though it is not affecting the long term conservation 
of brown bears on the refuge, they determined that no longer 
can hunters practice the tradition which we have done for years 
on the refuge of taking brown bears over bait near the refuge.
    Senator Sullivan. Is there a law that outlaws that?
    Mr. Lang. They have administratively banned it. They are 
banning it through these kinds of administrative regulations 
you are seeing here.
    The State of Alaska largely adopted that bear baiting 
practice to soften some of the interactions we were having with 
local communities that were having increased problems with 
human-bear interactions. We were seeing increased numbers of 
maulings and a variety of other things.
    Interestingly enough, when the Service banned the taking of 
brown bears over bait, they allowed the continued practice of 
taking black bears over bait. It is very confusing as to why 
the taking of brown bears over bait would be disallowed but the 
taking of black bears would continue to be allowed.
    Senator Sullivan. Does the Fish and Wildlife Service employ 
predator control activities, even though they have prohibited 
the State of Alaska to use predator management activities?
    Mr. Lang. That is an interesting observation because when I 
was director one of the things we worked on closely with the 
Service was to ensure that pigeon guillemots, a sea bird that 
occurs in Prince William Sound, did not become extirpated from 
an island in Prince William Sound.
    Very similar to Unimak Island where we have a caribou 
population at risk of extinction from that island because of 
wolf predation, here we are not going to lose caribou overall 
in the Aleutians, it is a very small area where we will lose 
them and we want to take active steps and Prince William Sound 
is very similar with pigeon guillemots. They are going to 
potentially be extirpated from an island because of mink 
predation.
    The Fish and Wildlife Service came to us and asked for a 
permit to exterminate these mink from this island to allow for 
the restoration and prevent the extirpation of these pigeon 
guillemots from the island. We worked very closely with them 
and gave them the permit to do that.
    We are very confused why we cannot take any steps to 
actively manage on Unimak Island to prevent the extirpation of 
the caribou herd, but yet the Service can go in and actively 
manage State mink which are indigenous to that island from 
potentially harming and causing the extirpation of pigeon 
guillemots from an island.
    Senator Sullivan. Let me step back a bit more with regard 
to the proposed Fish and Wildlife rule that has been the source 
of a lot of concern in Alaska and I think even nationally.
    The Fish and Wildlife Service claimed that the proposed 
rules will not affect title 8 of ANILCA, the federally defined 
subsistence users category. Do you agree with that?
    Mr. Lang. No, I do not because again it is the passive 
management approach that we are increasingly moving to. As I 
said earlier, if you are living a rural lifestyle in Alaska, 
you need a steady source of food. You do not need a food source 
that is going to fluctuate widely with cycles of nature.
    Senator Sullivan. Can you explain that? Honestly, I do not 
think most people in Washington, DC, at a hearing like this 
understand what subsistence actually means. If someone does not 
have the right to subsist with regard to fishing or hunting, 
what possibly happens to them in the winter? Do they have a 
store down the street to go to and fill up their freezer?
    Mr. Lang. The thing I like to say is when you are in 
Alaska, there is not a road running to your place. Every place 
in the lower 48, almost every community has a road going to it. 
You can drive to a store to get something.
    Now picture yourself in Alaska. Oftentimes you are 3 hours 
by plane to get to the nearest grocery store or anything else. 
In the wintertime, there is no guarantee you will get there. 
You rely on food sources for your very subsistence, for you and 
your family's subsistence.
    How would you like to be told that we are not going to 
guarantee that subsistence is going to be there for you because 
we are not going to actively manage for it? We are not going to 
allow you to control the number of wolves or bears near your 
area. Instead, we are going to allow moose numbers way down to 
insufficient numbers to provide food for you and your family. 
You are going to starve.
    It is not a matter of going to a grocery store as an 
alternative food source. It is a matter of social justice. You 
have to be able to eat. That is the food that you have, living 
off the land.
    Senator Sullivan. I appreciate that. I think that is why 
these hearings are important because I do not think those kinds 
of issues come up in other States all the time. Maybe they do 
in some States, but I do not think they do in a lot of States.
    I think that kind of testimony is powerful. It also helps 
us understand some of the issue at play here.
    Mr. Barry, this goes to the issue of working with the 
States and other organizations. The National Park Service and 
the Fish and Wildlife Service have proposed a number of regs 
over the course of the last several years. Has your 
organization been provided an opportunity to input or review 
the draft documents of these regs or EAs that have come from 
some of these Federal agencies?
    Mr. Barry. I certainly have not personally. I have no idea 
if anyone on my staff has. I am not aware of our being given 
any advance copies to take a look at or to critique.
    Senator Sullivan. One of the things that has been an 
enormous source of frustration which I think goes to the 
federalism issues, the broader topic of today's hearing, is 
there have been a number of occasions where the Department of 
Interior and different Federal agencies announced proposed 
rules that clearly impact States.
    The States are literally the last to know. Some outside 
environmental groups that clearly get heads up from our Federal 
agencies get a chance to discuss them with Federal officials, 
have press releases that go out as soon as the Federal 
Government makes these announcements.
    The States which are often, in statute, required to be 
consulted and have input, the No. 1 priority organization, we 
get told last. I think it is an enormous frustration and 
something I have raised with different officials including 
Secretary Jewell. It is an issue I think we need to continue to 
work on.
    The purpose of today's hearing is how important the States 
are in terms of their relationship with the Federal Government 
in terms of management but also in terms of what the Federal 
statutes require the Federal agencies to do in terms of State 
input.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    I have two observations in closing. One is in sympathy with 
Senator Rounds and the elk having to rot where they are shot.
    On the fisheries side, we have, as you know, situations in 
which our fishermen are allowed to go out and troll for fish. 
When the net comes in, there are fish that have been caught, 
and if you have ever been out, being at the back after a long 
troll is not a good situation for a fish.
    When they come out of the troll, they are not doing well, 
yet the fishermen are not allowed to keep certain of them 
because they are not permitted for it so they have to go over 
the side. Some of them are really beautiful and are not going 
to survive. It is a shame. It is a waste.
    We have tried to work through programs so they can be 
taken, frozen and given to people in need of food and so forth, 
but it is a constant challenge. I think it is a place where we 
can and should do better.
    The second point I wanted to make is I want to push back a 
little on a theme that has begun to emerge in this hearing that 
it is always the local community that is the best determinant 
of the conservation interest. I think that is probably usually 
true, but if you think back to the era of Teddy Roosevelt, he 
faced situations in which enormous natural bounty in our 
country was being despoiled and ruined because the mining 
interests, the timber interests, the wholesale hunting 
interests had gotten control of State legislatures. They were 
essentially ransacking and plundering the West. It took TR to 
step in and protect those resources which we still enjoy today.
    That will not be the case every time, but neither is it the 
case every time that the Federal Government has no proper role. 
In fact, one of the better biographies of Teddy Roosevelt 
described him as the wilderness warrior because he fought to 
preserve these areas of wilderness.
    I think we need to look toward balance between the Federal 
interests and the State interests. We need to pay particular 
attention to the State interests where there is an appearance 
that there is political control being abused, and I think we 
need to pay very close attention to people whose lives depend 
on these resources in remote areas with which many of us are 
not familiar.
    I think if we can stay within those principles, we can find 
a lot of common ground.
    Senator Sullivan. I thank the Ranking Member for those 
comments. I would agree wholeheartedly with those.
    Let me finish by relating to that. Mr. Lang, Mr. Barry 
described some of the refuges as game factories for sport 
hunters early in his testimony. For example, when you were the 
head of fish and game in Alaska, is that how you managed 
Federal lands as game factories for sport hunters?
    Mr. Lang. No, I do not think we managed them as game 
refuges at all. I think we managed them for multiple use 
benefits. We certainly did manage them for human benefit. We 
did not manage them just for nature's benefit. They were not 
managed solely as game factories.
    Senator Sullivan. Mr. Regan, I mentioned the rule, and it 
has been a focus of mine for obvious reasons given the State 
and the people I represent. The Fish and Wildlife Service 
proposed rule was the subject of an amendment in this committee 
a couple of weeks ago.
    As I mentioned, it is specific to Alaska. Given the breadth 
of your organization and who you represent, should other States 
be concerned by this kind of specific rule focused on one State 
from the Federal Government in terms of game management? If so, 
why?
    Mr. Regan. Yes, Mr. Chairman. Clearly that is why the 
Association is involved. We are concerned that if this policy 
guidance on biodiversity is elevated to being a regulation for 
refuges in Alaska, that is going to create a new standard, if 
you will, for judicial engagement and we could potentially see 
the export of that rule from Alaska to other national wildlife 
refuges in the lower 48.
    To the extent that would perpetuate or continue to comprise 
State authority, that is the real nexus for our engagement with 
the issue right now.
    Senator Sullivan. Let me ask more specifically, the 
National Wildlife Refuge System Administration Act assigns the 
Secretary 14 responsibilities when administering the refuge 
system. The rule we are talking about with regard to Alaska, 
the Secretary clearly seems to be prioritizing one of these 
responsibilities in defining it in a regulation.
    Do you think that is appropriate? Does that have an impact 
beyond Alaska alone from your organization's perspective?
    Mr. Regan. Mr. Chairman, we do not think it is needful. We 
do not think it is appropriate. We think it could impact other 
States beyond Alaska.
    Senator Sullivan. For the same reason you mentioned in your 
earlier answer?
    Mr. Regan. That is correct.
    Senator Sullivan. Thank you.
    I want to thank the witnesses. You have been very patient. 
I want to thank you all for your service over the years. I know 
many of you have engaged and participated in public service in 
different capacities.
    I think this was a very useful hearing. There was a lot of 
substance and a lot of potential common ground on some of these 
issues. Thank you for coming, taking the time to testify and 
enlightening the committee on a number of the important issues.
    This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
